<html>
<title> - MARKUP OF H.R. 3373, H.R. 5038, S. 1340, H.R. 4864, H.R. 4508, H. Res. 752, H.R. 2343, H. Res. 754, H.R. 630, H.R. 3843, H.R. 2529, H.R. 2444, H.R. 4331, and H.R. 3571</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    MARKUP OF H.R. 3373, H.R. 5038, 
S. 1340, H.R. 4864, H.R. 4508, H.Res.752, H.R. 2343, H. Res. 754, H.R. 
     630, H.R. 3843, H.R. 2529, H.R. 2444, H.R. 4331, and H.R. 3571

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           December 18, 2019

                               __________

                           Serial No. 116-88

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-741PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                      BILLS AND AMENDMENTS EN BLOC

H.R. 3373, Office of International Disability Rights Act.........    20
H.R. 5338 Global Hope Act........................................    29
Amendment in the Nature of a Substitute to H.R. 5338 offered by 
  Mr. McCaul.....................................................    35
H.R. 4864, the Global Child Thrive Act...........................    36
Amendment in the Nature of a Substitute to H.R. 4864 offered by 
  Mr. Castro.....................................................    54
H.R. 4508, Malala Yousafzai Scholarship Act......................    70
Amendment in the Nature of Substitute to H.R. 4508 offered by Mr. 
  Smith..........................................................    78
H. Res. 752, Supporting the Rights of the People of Iran to Free 
  Expression, Condemning the Iranian Regime for its Crackdown on 
  Legitimate Protests............................................    79
Amendment in the Nature of a Substitute to H.RES. 752 offered by 
  Mr. Deutch.....................................................    87
Amendment to the Amendment in the Nature of a Substitute to 
  H.RES. 752 offered by Mr. Engel................................    95
H.R. 2343, Peace and Tolerance in Palestinian Education Act......    96
Amendment in the Nature of a Substitute to H.R. 2343 offered by 
  Mr. Sherman....................................................   100
H. Res 754, Expressing the Sense of the House of Representatives 
  That the United States Should Continue to Support the People of 
  Nicaragua in Their Peaceful Efforts to Promote Democracy and 
  Human Rights and Use the Tools Under United States Law to 
  Increase Political and Financial Pressure on the Government of 
  Daniel Ortega..................................................   104
H.R. 360, Counterterrorism Screening and Assistance Act of 2019..   109
Amendment in the Nature of a Substitute to H.R. 630 offered by 
  Mr. Zeldin.....................................................   126
Amendment in the Nature of a Substitute to H.R. 630 offered by 
  Ms. Omar.......................................................   138
H.R. 3843, Countering Russian and Other Overseas Kleptocracy Act, 
  which is the CROOK Act.........................................   139
Amendment in the Nature of a Substitute to H.R. 3843 offered by 
  Mr. Keating....................................................   155
H.R. 2444, Eastern European Security Act.........................   171
Amendment in the Nature of a Substitute to H.R. 2444 offered by 
  Mr. Engel......................................................   174
H.R. 4331, Tibetan Policy and Support Act of 2019................   177
Amendment in the Nature of a Substitute to H.R. 4331 offered by 
  Mr. Engel......................................................   206
Amendment to the Amendment in the Nature of a Substitute to H.R. 
  4331 offered by Mr. Engel......................................   227
H.R. 3571, City and State Diplomacy Act..........................   228
Amendment in the Nature of a Substitute to H.R. 3571 offered by 
  Mr. Lieu.......................................................   238
Amendment to the Amendment in the Nature of a Substitute to H.R. 
  3571 offered by Mr. Meeks......................................   249

                                APPENDIX

Markup Notice....................................................   251
Markup Minutes...................................................   252
Markup Attendance................................................   253

                        STATEMENT FOR THE RECORD

Statement for the record submitted from Representative Jeffries..   254

                             MARKUP SUMMARY

Summary of the Markup for the record.............................   255

 
MARKUP OF H.R. 3373, H.R. 5038, S. 1340, H.R. 4864, H.R. 4508, H. Res. 
752, H.R. 2343, H. Res. 754, H.R. 630, H.R. 3843, H.R. 2529, H.R. 2444, 
                        H.R. 4331, and H.R. 3571

                      Wednesday, December 18, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Mr. Engel. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any point. Pursuant to committee rule 4, the chair 
may postpone further proceedings on approving any measure or 
matter or adopting an amendment. Without objection, all members 
may 5 days to submit statements or extraneous materials on 
today's business.
    As members were notified yesterday, we tend to consider 12, 
now 12 bipartisan measures and amendments, en bloc. Pursuant to 
notice for purposes of markup, I now call the en bloc package 
consisting of 11 measures: H.R. 3373, Office of International 
Disability Rights Act; H.R. 5038 Global Hope Act, with a McCaul 
amendment; H.R. 4864, the Global ChildThrive Act, with a Castor 
Amendment in the Nature of a Substitute; H.R. 4508, Malala 
Yousafzai Scholarship Act with a Smith amendment; H.Res. 752, 
Supporting the rights of the people of Iran to free expression, 
condemning the Iranian regime for its crackdown on legitimate 
protests, with a Deutch Amendment in the Nature of a Substitute 
and an Engel amendment to the Amendment in the Nature of a 
Substitute; H.R. 2343, Peace and Tolerance in Palestinian 
Education Act, with a Sherman Amendment in the Nature of a 
Substitute; H.Res 754, Expressing the sense of the House of 
Representatives that the United States should continue to 
support the people of Nicaragua in their peaceful efforts to 
promote democracy and human rights and use the tools under 
United States law to increase political and financial pressure 
on the government of Daniel Ortega; H.R. 360, Counterterrorism 
Screening and Assistance Act of 2019, with a Zeldin Amendment 
in the Nature of a Substitute and an Omar amendment to the 
Amendment in the Nature of a Substitute; H.R. 3843, Countering 
Russian and Other Overseas Kleptocracy Act, which is the CROOK 
Act, with a Keating Amendment in the Nature of a Substitute; 
H.R. 2444, Eastern European Security Act, with an Engel 
Amendment in the Nature of a Substitute; H.R. 4331, Tibetan 
Policy and Support Act of 2019, with an Engel Amendment in the 
Nature of a Substitute and an Engel amendment to the Amendment 
in the Nature of a Substitute; H.R. 3571, City and State 
Diplomacy Act, with a Lieu Amendment in the Nature of a 
Substitute and a Meeks amendment to the Amendment in the Nature 
of a Substitute.
    Senate 1340, the Ebola Eradication Act, was noticed for 
this markup, but I am not calling it up at this time; H.R. 
2529, the New START Bill, was noticed, but I am also not 
calling it up as well since we have a few things to work out. I 
will continue to work on this bill and list it for the next 
markup.
    At this time, I recognize myself to speak on today's 
business. I am pleased to support all of the bipartisan 
measures before us today and I thank our members for their hard 
work. I will keep my remarks brief and highlight just a few of 
the 12 bills and resolutions.
    OK, I will turn now to the Countering Russian and Other 
Overseas Kleptocracy Act authored by Mr. Keating and Mr. 
Fitzpatrick on the subject of Mr. Putin. Putin and kleptocrats 
like him keep their power by corruption enriching a circle of 
loyal cronies at the expense of the citizens they represent. 
And as we have seen here in our Nation, they export corruption 
to gain leverage over world leaders and undermine democracies 
from within.
    As we take this measure up, I am reminded that prior to 
becoming, taking office, President Trump spoke against the 
Foreign Corrupt Practices Act which bans bribery and other 
corruption in foreign business dealings, so I am pleased to 
support the CROOK Act which provides support to other countries 
combating corruption.
    I also wanted to thank Mr. McCaul for his work on the 
Eastern European Security Act, a measure that mirrors my bill, 
the NATO Defense Financing Act. It is critical that NATO allies 
modernize their military forces and shift away from reliance on 
Russian or old Soviet-era equipment. This legislation which 
would complement U.S. security assistance allows for loans to 
our allies so they can update their equipment and security 
needs. Our own security depends upon a strong NATO alliance, so 
I hope all members will join me in approving this measure that 
supports our European allies.
    Next, I will turn to House Resolution 752, which reaffirms 
our support for the rights of the Iranian people and condemns 
the Iranian regime for violently cracking down on protests. In 
the past months, I have been horrified by the images coming 
from Iran. Peaceful protestors met with violence, abuse, and 
brutality; internet and communications technology completely 
cutoff and censored.
    It is just sickening to see the way that the regime treats 
the people of Iran, so I am pleased that we are considering 
this measure to reaffirm Congress's longstanding, bipartisan 
support for the Iranian people's right to freedom of expression 
and our strong opposition to the regime's cruel tactics. I hope 
all members will join me and support this measure.
    Next, I will turn to my Amendment in the Nature of a 
Substitute to Tibetan Policy and Support Act of 2019, a measure 
offered by my friend, Mr. McGovern, the co-chair of the 
congressional Executive Committee on China and a leading 
advocate for the people of Tibet. Congress has always been a 
strong supporter of the Tibetan people's fight for their 
religious freedom and human rights.
    Now, Beijing has made it clear that they plan to select 
future Tibetan Buddhist religious leaders including the next 
Dalai Lama. It is an unthinkable violation of the basic 
principles of religious freedom that the Chinese Government 
would choose a religious leader for the Tibetan people rather 
than allowing the Tibetan people to make this decision through 
their ancient and sacred traditions. So with this bill, we send 
a clear message. If Chinese officials infringe on the religious 
freedom of the Tibetan people in this manner, we will hold them 
accountable. I am proud to support this measure and hope all 
members will do the same.
    Next, I want to thank Mr. Jeffries for his Malala Yousafzai 
Scholarship Act to ensure that at least half of USAID's merit 
and needs-based educational scholarships in Pakistan go to 
women. I am glad to see it is named after Malala, an iconic 
champion for girls' education, who persisted and who the 
Taliban attacked simply because she wanted to go to school. 
This is an excellent bill that I am proud to move forward in 
today's markup.
    And, finally, I will turn to the Global Hope Act, a measure 
I cosponsored with Ranking Member McCaul, a longtime advocate 
in the fight against childhood cancer. The Global Hope Act 
takes the successful advances developed in the U.S. to fight 
childhood cancer and uses them to explore public-private 
partnerships for this mission throughout the world. It is a 
good bill I am pleased to support.
    I strongly support all the measures we are considering 
today and I urge all members to join me and do the same. And I 
will now recognize our ranking member, Mr. McCaul of Texas, for 
his remarks.
    Mr. McCaul. Well, thank you, Chairman Engel, for working 
with me and my side of the aisle over the past year to move 
important bipartisan measures through the committee and the 
House. I think, today, we are once again demonstrating that we 
can get things done in Congress.
    Today, we are considering 12 measures including two 
measures I introduced, the Global Hope Act and the Eastern 
European Security Act. I would like to thank the chairman for 
his support and for partnering with me on the Global Hope Act. 
I founded the Childhood Cancer Caucus over a decade ago and 
since then we have made tremendous strides toward taking steps 
to cure this terrible disease. I am proud of the bipartisan 
work we have accomplished.
    In the United States, childhood cancer is largely curable 
with over an 80 percent survival rate. Sadly, in developing 
countries this is reversed. The mortality rate for children 
diagnosed with cancer is 80 percent. In Africa it is as high as 
90 percent. This is unacceptable, particularly given the low-
cost measures and drugs that we have to cure this disease.
    The United States has invested billions of dollars through 
PEPFAR and other programs to strengthen health systems and 
reduce disease burdens on developing countries. Because of 
these sustained investments, we are seeing impressive gains in 
global health and infectious disease survival rates. This bill 
is an opportunity to build on those successes. Important 
activities are already underway and showing results including 
training doctors and health professionals and increasing access 
to low-cost generic medicines and interventions such as Texas 
Children's Hospital in Botswana.
    In September 2018, the Global Health Organization announced 
a global initiative for childhood cancer that aims to reach at 
least a 60 percent survival rate for children with cancer by 
2030, and the private sector has stepped up to the plate and 
worked with health ministries and invested money on their own. 
That is why I introduced the Global Hope Act, to leverage the 
strength of the U.S. Government global health activities by 
partnering with the private sector, NGO's, hospitals, and 
international organizations.
    My bill authorizes the Secretary of State to engage in 
public-private partnerships and build on the successes of our 
current programs to address childhood cancer. This bill does 
not take away from our existing infectious disease programs, 
but rather catalyzes effective partnerships with hospitals and 
the private sector to work with health ministries, train 
medical personnel, and support the infrastructure to diagnosis, 
treat, and care for these children. A child's survival from 
cancer should not be predicted on where they are born and I 
look forward to working with my colleagues on this important 
bill.
    On the Eastern European Security Act, it is vital that 
NATO-member countries who were formerly part of the Soviet bloc 
have modern and effective defense articles that are easily 
integrated with those used by the United States and other NATO 
allies. The Eastern European Security Act authorizes direct 
loans to these NATO allies so that they are not dependent on 
Russian or former Soviet-era defense articles. The bill 
supports our NATO allies and American jobs and is the best way 
to secure the alliance.
    Last, on the Iran Resolution, I would like to thank my 
colleagues, Mr. Deutch and Mr. Wilson, for their work on a 
resolution supporting the rights of the people of Iran to free 
expression and condemning the Iranian regime for its crackdown 
on legitimate protests. This resolution is an important step in 
responding to their protests and subsequent crackdown.
    I think particularly with this maximum pressure campaign, 
Iran is starting to feel the squeeze. They are crippled, they 
are getting provocative, and now is the time, I think, to act, 
so that we can topple the regime and free the Iranian people 
and the rights, the human rights of the Iranian people. And so 
with that I would like to thank all the members of the 
committee. I know it is a busy day today. And with that, Mr. 
Chairman, I yield back.
    Mr. Engel. Thank you, Mr. McCaul.
    Mr. Sherman.
    Mr. Sherman. Mr. Chairman, this is perhaps the most 
partisan day in which has been perhaps the most partisan year 
in an era noted for its extreme partisan divisions. Yet today 
we will pass 11 bills, all of which have wide, near-unanimous, 
bipartisan support. It is a testament to the chair and the 
ranking member of this committee that those who listen to our 
proceedings in audio format, who hear but do not see, have 
difficulty discerning which Congress member is a member of 
which political party. This committee is an island of calm in a 
very stormy sea. I support the en bloc measure and I yield 
back.
    Mr. Engel. Thank you, Mr. Sherman.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. These are 
great bills, and I want to thank Mr. McCaul for his efforts to 
try to mitigate the challenges of childhood cancer in the 
developing world. I also want to thank Congressman Jeffries for 
accepting my amendment. As difficult as it is to be a woman in 
search of an education in Pakistan, it is even more difficult 
if you are a woman who is part of a disfavored religious 
minority, and my amendment includes reference to religion as a 
factor in marginalization, responds to a need identified by the 
U.S. Conference of Catholic Bishops on behalf of all--I say 
again, all--religious minorities in Pakistan.
    I want to thank Albio Sires, especially, for his resolution 
of Nicaragua. I first met with Daniel Ortega in 1984 on a human 
rights mission to Nicaragua when there was a terrible war going 
on and his human rights abuses, which were egregious and 
pervasive then, continue to be so today. So thank you, Albio, 
for a great resolution.
    I also want to speak to the Tibet Policy and Support Act of 
2019. I am the prime Republican sponsor of that bill working 
with my good friend and colleague, Jim McGovern. Just last 
month, a 24-year-old Tibetan former monk named Yonten set 
himself on fire, and he is one of 150 self-immolations which 
have occurred over Tibet since 2009 in protest of China's 
continuing and worsening occupation of the people.
    What could drive a man to that extreme? Well, under Xi 
Jinping there has been an expansion of the effort to erase 
Tibetan culture and to bring about what they call the 
sinicization of Tibetan Buddhism, just as it seeks to bring all 
religions or religious believers to heel in China, a phenomena 
which I discussed in an op-ed article that I wrote for the 
Washington Post nearly a year ago. Xi Jinping is trying to take 
every faith including Tibetan Buddhists and say they must cow-
tow to him and to Marxist-Leninist principles or else they will 
be jailed, tortured, and even worse, killed.
    In the past year, according to the China Commission--and I 
am the former chairman of it and now I am currently the ranking 
member--the Chinese Government has forced Tibetans to remove 
photos of the Dalai Lama from their homes, and whose picture 
goes up instead? Xi Jinping. This Congress, this year, has a 
list of important acts of legislation focused on China. Two 
Hong Kong bills, a bill just the other week on the human rights 
situation of the Muslim Uyghurs, and now we are addressing the 
issue of Tibet.
    Keep in mind that just 1 year after the Communists took 
control over the Chinese mainland, China began the process of 
annexing the neighboring country of Tibet. Beginning in October 
1950 and continuing into the next year, troops of the People's 
Liberation Army marched into Tibet easily overcoming resistance 
and forcing the Government of Tibet to acknowledge the 
overlordship of China. An uneasy period of semi-autonomy 
existed until 1959 when Tibet tried to overthrow the yoke of 
Communist occupation. This too was crushed, and crushed 
brutally.
    China completed its incorporation of Tibet and the Dalai 
Lama fled 60 years ago. In exile, the Dalai Lama became the 
personification of Tibetan national and religious aspirations. 
Thirty years ago, the Nobel Committee recognized the Dalai Lama 
for his peaceful challenge to Chinese occupation and his 
defense for the dignity and autonomy of the Tibetan people.
    This year, incidentally, I plan to nominate the Hong Kong 
protestors for the Nobel Peace Prize and hope that my 
colleagues on this committee will sign that letter of 
nomination. I would point out that Liu Xiaobo led the effort in 
this House and it was joined by people all across the world 
when he was named the Nobel Peace Prize winner and that at 
least brought a tremendous focus on the ongoing human rights 
abuses by China.
    In the 17 years since the original Tibetan Policy Act of 
2002, the human rights situation in Tibet, sadly and 
tragically, has worsened. The Chinese Government has refused to 
enter into dialog with Tibetan leaders and Chinese officials 
have threatened to select future Tibetan Buddhist leaders, 
including the successor to the 14th Dalai Lama, in clear 
violation of their international religious freedom obligations 
and the traditional practices of the Tibetan Buddhist faith 
community. Furthermore, the policies of the Chinese Government 
have severely degraded Tibetan religion, culture, language, 
livelihoods, and the natural environment.
    This bill, along with the Reciprocal Access to Tibet Act 
which Congress passed in 2016, sends the right message to 
Beijing. The fate of Tibet, its people and resources and 
religion are a strategic interest to the United States, but 
above all they are entitled--they are entitled--to freedom and 
they are entitled to democracy. I yield back the balance of my 
time.
    Mr. Engel. Thank you. Thank you, Mr. Smith.
    Mr. Sires.
    Mr. Sires. Thank you very much, Mr. Chairman, for calling 
this markup. I am grateful we are able to advance these 
bipartisan measures today.
    I want to speak about the resolution I introduced with my 
colleague, Francis Rooney, ranking member of the Western 
Hemisphere Subcommittee. This resolution highlights the severe 
human rights abuses that have taken place in Nicaragua since 
last year and conveys bipartisan support for the people of 
Nicaragua as they seek to reclaim their fundamental rights.
    Last year, repression by Nicaragua's security force has 
resulted in more 300 deaths. Amnesty International described 
the Nicaraguan Government's repressive tactics as a deliberate 
strategy of shooting to kill. Independent experts from the 
Organization of American States found that Nicaraguan officials 
committed crimes against humanity. Unfortunately, the situation 
remains dire. Today there are over 150 political prisoners in 
Nicaragua while hundreds of others have been released. They are 
routinely harassed by the authorities.
    Tens of thousands of Nicaraguans have fled the country to 
escape prosecution. A recent report from Nicaraguan civil 
society organizations detailed the torture and abuses suffered 
by 56 political prisoners in Nicaragua including sexual abuse, 
suffocation with plastic bags, and electric shocks. This 
resolution makes clear that the U.S. Congress stands with the 
Nicaraguan people who are demanding accountability in the face 
of such brutal repression.
    It calls for tangible steps from the Nicaraguan Government 
including immediate release of all political prisoners and the 
implementation of electoral reforms the Nicaraguan civil 
society organizations have long called for. However, the 
resolution also makes clear that if the Nicaraguan Government 
continues its repression, the international community should 
increase economic and political pressure on the Nicaraguan 
Government.
    I appreciate the efforts of Congressman Rooney and his 
staff to work with me on this important resolution. I thank 
Chairman Engel for this effort to have this markup and I thank 
all our members and their staff for their hard work, and I 
yield back.
    Mr. Engel. Thank you, Mr. Sires.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I just want to discuss 
briefly four of the bills before us today.
    As former chairman of the Middle East Subcommittee, I want 
to thank Mr. Deutch and Mr. Wilson for their hard work on H. 
Res. 752 of which I am a cosponsor. This important resolution 
reaffirms our support for the rights of the Iranian people and 
condemns the regime's crackdown on recent protests. The people 
of Iran have a right to hold their tyrannical rulers 
accountable for the economic stagnation that they have brought 
upon their country.
    Second, I am a cosponsor of Mr. Sherman and Mr. Zeldin's 
H.R. 2343, the Peace and Tolerance in Palestinian Education 
Act, which seeks to weed out anti-Israeli propaganda in 
Palestinian textbooks. Some Palestinians are willing to live 
side by side with Israel in peace, but there will not be peace, 
truly peace, until more Palestinians are willing to do so. And 
one step in the right direction is to stop teaching hate in the 
Palestinian schools and these textbooks are big part of that 
hatred.
    Third, I would like to mention Mr. Sires and Mr. Rooney's 
H.Res 754, which I am also a cosponsor. This important 
resolution expresses our unwavering commitment to democracy and 
human rights in Nicaragua. The Ortega regime has brutally 
suppressed protestors, and over a year and a half later no one 
has been brought to justice for, arguably, crimes against 
humanity. Ortega's lust for power and rank corruption proves he 
has long overstayed his welcome. It is time that Nicaragua had 
a free and fair election reflecting the will of the people to 
bring needed change to that country.
    And, finally, I would like to voice my support for H.R. 
4331, the Tibetan Policy and Support Act of 2019, and I want to 
thank Mr. McGovern and Mr. Smith for their work on this 
important legislation which defends the religious freedom of 
Tibet Buddhists by affirming the religious nature of the Dalai 
Lama's succession. The Chinese Communist Party is unwilling to 
recognize any authority beyond its own power, human or divine. 
We cannot live in a world where government, not people's 
consciences determines how religion is to be practiced.
    With that I would urge my colleagues to support these bills 
and many of the other bills, and I yield back.
    Mr. Engel. Thank you, Mr. Chabot.
    And, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I thank you and 
the ranking member for bringing 11 bills to this markup. I 
regret that we are not going to consider two bills, especially 
the Lugar-Tauscher Act, and I certainly look forward to next 
year when we do address that issue, because I believe that a 
failure to extend the New START agreement risks the utter 
collapse of any structure on arms reduction between Russia and 
the United States and I think that creates a very dangerous 
world. So I hope we will address that.
    I also want to echo part of the sentiments of my friend 
from California, Mr. Sherman, in terms of the bipartisan nature 
of the approach of this committee which is certainly something 
I hope we will continue to pursue. But I think it is also 
important to say bipartisanship is not intrinsically good or 
bad. It is not a goal in and of itself, it is a means toward an 
end. And bipartisanship requires two parties to willfully agree 
to compromise and cooperate, and the one denying its support 
cannot be used as a lever to prevent the work of the people's 
business, and I would simply note that. I support bipartisan 
approaches whenever and wherever we can achieve them, but they 
are not a goal in and of themselves.
    Mr. Chairman, I would like to talk about the Tibetan Policy 
and Support Act, H.R. 4331, in particular. This past August, I 
traveled to Dharmsala, India with the House Democracy 
Partnership where we met with His Holiness, the Dalai Lama, for 
several hours, as well as officials from the Tibetan Government 
in exile, the Central Tibetan Administration.
    We heard firsthand how the Chinese Government has 
strengthened its persecution of Tibetans through expulsions and 
demolitions of religious sites, the marginalizations of Tibetan 
culture and language, and further restrictions on Tibetans' 
travel especially through third countries like Nepal, which is 
an issue I hope this committee will take up because it is 
creating a very serious situation for the exiled community in 
Dharmsala.
    I am proud to be a cosponsor of H.R. 4331, the Tibetan 
Policy and Support Act, to update and strengthen the Tibetan 
Policy Act of 2002. In response to Chinese official threats to 
select future Tibetan Buddhist leaders, the bill establishes as 
U.S. policy that the succession or reincarnation of Tibetan 
Buddhist leaders, including the future 15th Dalai Lama, is an 
exclusively religious matter to be decided solely by the 
Tibetan Buddhist community not by the Chinese Government.
    I think that is a very important assertion by this 
committee and by this Congress and is a strong symbol of 
support for the Tibetan people and I hope a source of warning 
to the Chinese Government not to interfere with such an 
important process. I believe reinforcing and supporting the 
goals and aspirations of an entire ethnic population, the 
Tibetan people, is a very important value for this committee 
and, ultimately, the Congress to support and reassert, and I 
thank the authors for bringing this bill before us.
    With that I yield back. Thank you, Mr. Chairman.
    Mr. Engel. Thank you, Mr. Connolly.
    Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Eliot Engel and our lead 
Republican Michael McCaul for bringing these important 
bipartisan measures before us today, and I appreciate and want 
to reaffirm the comments by Chairman Gerry Connolly. Indeed, we 
can work together on bipartisan issues that are important to 
the American people. I am grateful to support a number of these 
bills and I appreciate the committee's commitment to 
bipartisanship and cooperation.
    First and foremost, I would like to express my strong 
support for my friend, Chairman Ted Deutch's, H.Res 752, 
supporting the rights and people of Iran. I truly believe that 
we are witnessing history today in Iran. Protests have erupted 
in mid-November over an announced rise in price of fuel has 
managed to ignite a massive, countrywide, popular protest that 
challenge the very nature of the political system in Iran.
    The Iranian people want a government that works for them, 
not to prop up a network of criminals and terrorists that 
include Assad and Hezbollah. The ayatollah cares more about 
death to America and death to Israel than he does about the 
Iranian people who have lived through unimaginable suffering 
over the past 40 years at the regime's hands. The great 
heritage of Persia has been subverted. The foremost State's 
sponsor of terrorism, the world has reacted in exactly the way 
any terrorist group would to these organized expressions of 
democracy. It is killing protestors by the hundreds, with a 
recent report suggesting the number could reach a thousand 
persons killed. In some cases, the terrorist regime is even 
refusing to return bodies to the families and loved ones.
    The news has been tragic, but I am hopeful and inspired by 
the energy and commitment of the people of Iran. I believe that 
1 day we will see the Iranian people take back their government 
and their destiny. This important resolution sends a strong 
message of support to the Iranian people and I thank Chairman 
Deutch for his work as well as for his tireless advocacy on 
behalf of human rights to the people of Iran. The very valued 
Iranian American community has been effective promoting freedom 
and democracy for their beloved families at home.
    I would also like to thank my colleague, Mr. Lee Zeldin, 
for his hard work on H.R. 630, the Counterterrorism Screening 
Assistance Act of 2019. This critical piece of legislation 
prioritizes capacity-building in foreign countries to prevent 
and detect terrorist travel internationally. This serious 
problem will continue to threaten our homeland and our partners 
abroad until we can minimize any gaps in the international 
terrorism screening system. I am grateful to Mr. Zeldin as well 
as lead Republican McCaul for their long history of work on 
this crucial issue.
    Last, I would like to express my strong support for Mr. Ted 
Lieu's H.R. 3571, the City and State Diplomacy Act. As a South 
Carolinian, I know all too well how important the bridges we 
build with foreign partners on a State and city level can be. 
The social and economic benefits that come from subnational 
diplomacy are extremely important and I thank Mr. Lieu for this 
legislation which will strengthen these kinds of more local 
efforts.
    The Columbia World Affairs Council has been so meaningfully 
established sister-city relationships with both Plovdiv, 
Bulgaria, Kaiserslautern, Germany, Chelyabinsk, Russia, and 
Cluj-Napoca, Romania. Chair Emeritus Fred Monk has been very 
effective. South Carolina, with the leadership of Governor 
Henry McMaster, promotes the sister-State relationship with 
Rhineland-Palatinate, Germany.
    The City and State Diplomacy Act will establish an Office 
of Subnational Diplomacy at the State Department to make sure 
that cities and States can leverage the power and network of 
the Federal Government to promote their own partnerships 
abroad. This will bring more tourism, more trade, and more 
foreign direct investments to cities and States across the 
country. I urge my colleagues on the committee to support this 
far-reaching bill. Thank you again, Chairman Engel and Leader 
Republican, and with that I yield back.
    Chairman Engel. Thank you, Mr. Wilson.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman, for holding this 
markup today. I would like to congratulate you and the ranking 
member for the terrific work this committee has accomplished 
this year.
    I am proud to support all of the good bills that we will be 
advancing today. The House Foreign Affairs Committee recognizes 
the importance of bipartisan American leadership in advancing 
American values. That is the leadership that we are providing 
today, and I commend my colleagues on both sides of the aisle 
for doing so.
    In mid-November, popular protests against the Iranian 
regime began and rapidly spread to at least 100 cities 
throughout the country in the most significant anti-government 
demonstrations in Iran since 2009. While protestors took to the 
streets in response to an announced increase in the price of 
fuel, they also called for structural reform of the Iranian 
political system and condemned current and former leaders. In 
response, Iranian authorities shut down the internet; security 
forces used lethal force, killing hundreds of people, marking 
the highest casualty rate of any protest movement in Iran since 
the Islamic Revolution four decades ago, and arresting at least 
7,000 more.
    Congress has long expressed bipartisan support for the 
human rights of the Iranian people, including the rights to 
peaceably assemble and protest. Congress has also supported the 
rights of Iranian dissidents and authorized the licensing of 
communications services to improve the ability of the Iranian 
people to speak freely.
    In keeping with that tradition, H. Res. 752 expresses the 
support of the House of Representatives for the rights of the 
Iranian people to free expression and condemns the regime for 
its crackdown on the recent legitimate, peaceful protests in 
Iran. The resolution condemns the Iranian regime's serious 
human rights abuses, significant corruption, and destabilizing 
activities abroad, and urges the President and the Secretary of 
State to work with the international community to ensure that 
violations of human rights are part of all formal and informal 
multilateral or bilateral discussions with and regarding Iran.
    I thank my friend, Mr. Wilson, for his leadership on this 
and so many other issues I am proud to partner with him on. I 
thank all of my colleagues for their support of this resolution 
which demonstrates that Congress stands with the Iranian people 
against the brutal regime and supports their right to live in a 
free society.
    And I yield back the balance of my time.
    Chairman Engel. Thank you. Thank you very much, Mr. Deutch.
    Mr. Rooney.
    Mr. Rooney. Thank you, Chairman Engel and Ranking Member 
McCaul.
    I want to thank Chairman Sires, chairman of the Western 
Hemisphere Subcommittee, and voice my support for his very 
important resolution for which I am thankful to be an original 
cosponsor, H. Res. 754, which expresses the House's support for 
the brave people of Nicaragua in their struggle for freedom and 
democracy against the oppressive regime of Daniel Ortega.
    The resolution highlights the regime's human rights abuses 
that have led to the deaths of 325 innocent Nicaraguans and 
injured thousands more in 2018. Today, the regime continues its 
assault on the Nicaraguan people with no signs of letting up. 
Just last month, the regime's police forces attacked churches 
and church leaders throughout the country and cut water to 
peaceful hunger strikers inside a church in the city of Masaya.
    These attacks harken back to Ortega's first round as 
Nicaragua's Marxist Communist leader in the early 1980's. 
Ortega is clearly no less an authoritarian and anti-democratic 
leader now than he was back then. Ortega mirrors his close 
allies in Cuba and Venezuela by oppressing dissent. We have 
seen the reports of arbitrary detentions and attacks on civil 
society and independent media that have forced many journalists 
and government dissenters to flee the country.
    The Ortegas are responsible for systematic corruption, 
getting rich by stealing from the people of the second poorest 
country in the Western Hemisphere. The Trump Administration has 
rightly responded by imposing sanctions on the Ortega family 
and other members of the regime who are responsible for 
corruption and human rights abuses. This resolution recognizes 
and supports the administration's efforts and calls for 
additional sanctions and restrictions on the regime's access to 
foreign financing.
    Today, I support this resolution in calling on Daniel 
Ortega to cease all attacks on the Nicaraguan people, release 
all political prisoners, and set the conditions for free and 
fair elections. The people of Nicaragua have suffered enough, 
and the House is rightly speaking out against the Ortega 
regime's crimes. I thank Western Hemisphere Subcommittee 
Chairman Sires again for introducing this resolution and will 
continue to work with him and our colleagues on the committee 
to support democracy for the Nicaraguan people.
    I yield back. Thank you very much.
    Chairman Engel. Thank you, Mr. Rooney.
    Before I call on our next people, I want to just remind 
everyone on the committee that we have our annual holiday party 
this evening, starting at five o'clock, right in this room with 
nice ambience. So, we would like members on both sides of the 
aisle. Mr. McCaul and I invite you. Please, please show up for 
a few minutes and welcome the holiday season. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I am also pleased to join with all of us here supporting 
all the legislation that is being considered en bloc today in a 
bipartisan fashion.
    I am also honored to join Representative Fitzpatrick in 
sponsoring the Countering Russian and Other Overseas 
Kleptocracy Act, or the CROOK Act. Russia's political system is 
built on a network of cronyism and kleptocracy, and exposing 
and countering Russian corruption and malign influence is a 
priority for our Europe, Eurasia, Energy and the Environment 
Subcommittee.
    For too long, Russian President Vladmir Putin and other 
Russian politicians and oligarchs have acted with impunity, 
exerting undue influence over Russian political and economic 
policies at home and abroad, and manipulating U.S. and European 
financial systems to move and disguise their dark money. Their 
illicit funds are being used to control key economic sectors, 
fund political parties and organizations that advance Russian 
interests and manipulate political processes and policies.
    Of course, corruption is not limited to Russia. Corruption 
can be found everywhere, inhabiting the dark corners of every 
country around the globe. So, we must shine a light on 
kleptocrats' ill-gotten gains and on those who benefit from 
them. The CROOK Act will help prevent Russian and other forms 
of kleptocracy from eroding democracy, security, and rule of 
law. It reaffirms U.S. policy to support key partners in 
promoting good governance and combating corruption.
    The CROOK Act would establish an Anti-Corruption Action 
Fund to assist governments and non-governmental organizations 
in their efforts to prevent, investigate, combat, and deal with 
corruption and bribery around the world. The Act would impose a 
$5 million prevention payment on some of the most corrupt 
offenders of the Foreign Corrupt Practices Act and against the 
leaders in spreading this malign practice throughout the world. 
They will be subject to fines and penalties that exceed $50 
million and would, thus, ensure those responsible for corrupt 
acts that contribute to efforts around the world and inhibit 
the rule of law, that they will seek leadership in countering 
this from the United States. The CROOK Act also establishes an 
interagency task force to work in coordination with U.S. 
embassies to coordinate assistance efforts, promote good 
governance in foreign States, and enhance the ability of 
foreign States to combat public corruption and evaluate foreign 
States' efforts.
    I hope all of you will join me in supporting the CROOK Act 
and ensuring that corruption has no place here, in Russia, or 
anywhere else.
    I yield back.
    Chairman Engel. Thank you, Mr. Keating.
    Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    I would like to speak briefly about two pieces of 
legislation that are being marked up today, that I know both 
measures will help further our Nation's strategic goals.
    I was proud to partner with my colleague on this committee, 
Representative Castro, to sponsor the Global Child Thrive Act. 
This legislation will bolster global early childhood 
development. Dedicating renewed attention to improving lives, 
the Act emphasizes the effective approaches to assist other 
countries in implementing child-focused initiatives and 
reauthorizes sections of the Foreign Assistance Act that will 
provide help to orphans and other vulnerable children through 
the year 2025. I would also encourage my colleagues in the 
Senate to take up the companion bill that is being led by 
Senator Blunt and Senator Coons as we have in the House today.
    The second piece of legislation I would like to highlight, 
which was just spoken to from my colleague, Mr. Keating, is the 
Countering Russian and Other Overseas Kleptocracy Act, or CROOK 
Act. The CROOK Act will establish an Anti-Corruption Action 
Fund to provide extra funding for anti-corruption reform in 
partner countries as well as streamline the U.S. Government's 
work building the rule of law abroad. I was fortune to be able 
to work with Mr. Keating on this bill and combine my role as a 
member of this committee and, also, as a Commissioner on the 
Helsinki Commission.
    Mr. Chairman, this legislation is critically important. As 
an FBI agent who led the FBI's Mission to End International 
Corruption, this bill is key to making sure that the right 
resources are available to the men and women on the front lines 
of this fight.
    I would ask all my colleagues to join me in supporting both 
of these important measures.
    I yield back, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Fitzpatrick.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for once again holding a markup of 
bipartisan measures, all of which make progress on important 
foreign policy initiatives that will further American national 
security and global leadership. And I particularly want to 
thank you and to acknowledge the strong, bipartisan leadership 
of the chairman and the ranking member for what has been a very 
productive year of work on the House Foreign Affairs Committee.
    I plan to support each of these measures and thank the 
sponsors for their hard work. I would like to take a few 
minutes to talk about some of the bills being considered today.
    I strongly support H.R. 4864, the Global Child Thrive Act, 
sponsored by my friends, Joaquin Castro and Brian Fitzpatrick. 
This bill will make important investments in education and 
early childhood development, recognizing the importance of 
safety, access to clean water and food, and access to 
education, for the development of healthy young people who can 
contribute to their own societies. With so many countries 
around the world experiencing decreasing child mortality rates, 
it is vital that the United States continue to support 
important programs to help children not just survive, but 
thrive.
    I am pleased to support H.R. 4508, the Malala Yousafzai 
Scholarship Act, sponsored by my colleague and good friend, 
Hakeem Jeffries from New York. This legislation, of which I am 
a proud cosponsor, requires USAID to provide at least 50 
percent of its merit and needs-based scholarships to women in 
Pakistan. Women in Pakistan still face enormous discrimination 
and hardship in accessing education. I am pleased to see this 
effort to ensure that our assistance will help give Pakistani 
women the educational opportunities they need to build leaders 
of the next generation who will follow in Malala's footsteps.
    I also want to thank Mr. Deutch and Mr. Wilson for their 
leadership in sponsoring H. Res. 752, a resolution supporting 
the rights of the people of Iran to free expression and 
condemning the Iranian regime for its crackdown on legitimate 
protests. I continuously am in awe of the courage of the 
Iranian people who are willing to risk their own personal 
safety to protest the corrupt and violent regime. The Iranian 
people want the same things everyone wants for themselves and 
their families--food to eat, a safe place to live, and access 
to real opportunities. The Iranian regime has used repression 
and fear to maintain control for decades, and when coupled with 
bad economic policies, the Iranians have no choice but to say, 
``Enough.'' I stand with these brave Iranians and I support 
their efforts to live freely and strongly support this 
resolution and urge my colleagues to do the same.
    Finally, I want to make reference to the CROOK Act, 
sponsored by my esteemed classmate, Mr. Keating, and Mr. 
Fitzpatrick. I am very proud to support this legislation to 
really reaffirm America's global leadership in combating 
corruption as a key and effective tool to promoting democracy, 
transparency, and honest government around the world. This 
legislation will strengthen U.S. efforts to advance the rule of 
law by establishing an Anti-Corruption Action Fund at the State 
Department. And now more than ever, America's leadership on 
this issue is necessary.
    So, with that, Mr. Chairman, I am going to urge my 
colleagues to support all of these bills and, again, thank my 
colleagues for their strong leadership in presenting them.
    With that, I yield back.
    Chairman Engel. Thank you, Mr. Cicilline.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman, for holding this markup 
and for including my bill, H.R. 3373, the Office of 
International Disability Rights Act, in the en bloc package.
    There are more than 1 billion persons with disabilities 
around the world. Eighty percent live in developing countries. 
Around 60 percent are women and there are more than 90 million 
children with disabilities. Women with disabilities are more 
likely to experience sexual violence and children with 
disabilities are more likely to be malnourished and subjected 
to violence, isolation, and abuse. They are also less likely to 
be in school than children without disabilities.
    Persons with disabilities are often excluded from the labor 
market, political participation, and meaningful involvement in 
public life. They are more likely to experience poverty, 
discrimination, and lack of access to vital resources. The 
world faces economic losses and costs when societies 
marginalize people with disabilities.
    The United States has historically been a leader on 
disability rights, and it is critical that we remain at the 
forefront and continue to give this issue the importance it 
deserves in U.S. foreign policy. The Special Advisor for 
International Disability Rights was a position created in 2010, 
and Judy Heumann, who served in that position, is with us here 
today. Thank you very much. She was instrumental in the 
drafting of this proposed legislation, and I thank her and her 
team for working with Erica on my staff to bring this forward.
    As Special Advisor, Ms. Heumann and her team helped boost 
the profile of disability rights within the State Department, 
raise the visibility of persons with disabilities in the 
Department's policies and programs, and improve the inclusion 
of disabilities in the annual Human Rights and Trafficking in 
Persons reports. They helped encourage foreign governments to 
combat discrimination, make democracy and human rights 
activities more inclusive, and work to ensure emergency 
planning and humanitarian aid were accessible to persons with 
disabilities. Indeed, their work made a real difference around 
the world.
    Just one small example, in a meeting with young Mongolian 
leaders visiting Congress through a USAID program earlier this 
year, they mentioned to me the support that the U.S. team had 
provided in helping them to craft their new law on the rights 
of persons with disabilities in 2016.
    Unfortunately, the position of Special Advisor has been 
vacant since January 2017, and with the vacancy, there has been 
a corresponding decline in U.S. leadership in the international 
disability rights arena. H.R. 3373 would restore U.S. 
leadership by codifying the Special Advisor position and the 
Office of International Disability Rights at the State 
Department. It would ensure that State Department personnel 
receive training, so that our programming, policies, and 
budgets are disability-inclusive and so personnel working in 
their respective missions will be able to perform their work 
through the lens of disability-inclusion.
    The bill also directs State to develop a formal policy on 
disability inclusion, something USAID has done and is in the 
process of updating, but State has not. This will ensure that 
Congress, disability people's organizations, and the public can 
better understand the State Department's efforts in these areas 
and hold them accountable for implementing such work.
    Disability rights cut across all sectors of foreign 
assistance--democracy promotion, voting in elections, human 
rights, labor, global health, education, economic growth and 
trade, gender equality, agriculture and food security, conflict 
transformation, and humanitarian recovery and relief.
    We cannot have more than 1 billion people invisible in the 
global development agenda or in our foreign policy because of 
disabilities. It is in the diplomatic, economic, and 
humanitarian interest of the U.S. to continue to lead 
internationally on disability rights, and this bill would 
ensure that we continue to do so. Disability rights are human 
rights, and I look forward to the bill's full consideration by 
the House.
    And I yield back.
    Chairman Engel. Thank you, Ms. Titus.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chairman.
    Across the country, our cities and States are laboratories 
of democracy. They are places where innovative policies are 
developed on everything from resource management to trade, to 
public safety, but our cities and States are also instruments 
of U.S. diplomacy. For years, mayors, council members, school 
board members, and Governors have been engaging with their 
foreign counterparts around the globe to share best practices 
and strike agreements on a range of issues. The growth of 
subnational cooperation has enabled cities and States to play 
an increasingly significant role in foreign policy and 
complement the efforts of the State Department. These 
engagements support U.S. trade and investment, facilitate 
cooperation on energy and the environment, increase the health 
and safety of our citizens, and promote people-to-people 
exchanges.
    Today, global networks made up exclusively of local 
government officials are at the forefront of harnessing the 
power of cities to advance international cooperation, including 
organizations such as the Global Parliament of Mayors, Urban 
20, and more. It is in the interest of the United States to 
promote these subnational engagements, align them with national 
objectives, and leverage Federal resources to enhance their 
impact.
    For too long, however, our cities and States have been 
conducting this subnational diplomacy with little to no support 
from the Federal Government. That is a missed opportunity by 
both sides. My legislation being considered today, the City and 
State Diplomacy Act, seeks to address this major gap. This 
legislation will do two things.
    First, it will establish a new Office of Subnational 
Diplomacy at the State Department that will coordinate all 
Federal resources needed to support our mayors and Governors on 
the world stage. This office will be headed by a senior 
official of an appropriate rank to represent the U.S. in 
international fora and develop the agreements necessary to 
facilitate more subnational engagement.
    Second, the legislation authorizes State Department 
detailees to city halls and State capitals across the country 
to advise and assist our mayors, council members, school board 
members, and Governors and help them achieve their specific 
international objectives.
    I am pleased this legislation has broad support not only 
from my colleagues across the aisle, but from across the 
country as well. This legislation will benefit every American 
city and every State with international interests.
    I am also pleased that this legislation has garnered the 
support of the U.S. Conference of Mayors, the American Foreign 
Service Association, Los Angeles Mayor Eric Garcetti, and a 
number of former senior State Department officials from both 
Republican and Democratic administrations. I am also very 
pleased this legislation has bipartisan coauthors.
    I would like to extend my deep thanks to Congressman Joe 
Wilson of South Carolina for partnering with me on this 
legislation and for his kind remarks about the bill today. I 
also want to thank Chairman Engel and Ranking Member McCaul for 
bringing this legislation forward to markup.
    And I yield back.
    Chairman Engel. Thank you, Mr. Lieu.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    I move to strike the last word. I am proud to speak in 
support of H.R. 4864, the Global Child Thrive Act of 2019. I 
want to thank my colleagues, Representatives Joaquin Castro and 
Brian Fitzpatrick, for leading on this important legislation.
    Around the world and here at home, millions of children 
lack access to vital early childhood development programs. We 
know from a rich body of research that the first years of a 
child's life are unparalleled in their potential to shape 
outcomes later in life. As a result, discrepancies in accessing 
early learning are a leading cause of inequity in health and 
well-being as well as academic and professional success 
throughout their lives.
    The Global Child Thrive Act will position our country to 
advance early childhood development globally as a major 
priority of U.S. Government international programming. At a 
time when 35 million children around the world are refugees or 
displaced, and when 1 in every 5 children internationally lives 
in a conflict-affected area, this work could not be more 
urgently needed. Particularly given the profoundly negative 
impact of stressful, unstable environments on children's 
development, we must ensure that coming generations can access 
these vital services, regardless of the tragic circumstances 
that they had the misfortune to be born into. We must remember 
our common humanity.
    I commend my colleagues from both parties for working 
together to make clear that belief in the importance of early 
childhood development is a core interest and value of the 
United States. I urge all of my colleagues on the committee to 
join me in voting for the passage of H.R. 4864, the Global 
Child Thrive Act.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Engel. Thank you, Ms. Wild.
    Mr. Allred.
    Mr. Allred. Thank you, Mr. Chairman, and I also want to 
thank the ranking member for your work in bringing together 
these bills for us to consider today.
    I am happy to support all of them. I would want to 
specifically mention three bills that I am a cosponsor of--the 
Global Child Thrive Act, the Malala Yousafzai Scholarship Act, 
and the resolution supporting the rights of the Iranian people 
to free expression.
    The Global Child Thrive Act, introduced by my fellow Texan, 
Congressman Castro, takes an important step forward in 
coordinating U.S. interagency efforts toward taking a more 
holistic approach to supporting early childhood health and 
development. Through focusing on early childhood development 
across all sectors from water and sanitation to basic 
education, the U.S., with our international partners, can lead 
the way in improving the lives of children across the world.
    The Malala Yousafzai Scholarship Act, named after the 
world-famous Pakistani activist for education and the youngest 
Nobel Laureate, would require that half of all USAID merit and 
needs-based scholarships in Pakistan go to women. This fix 
takes a huge leap forward in ensuring that women have the same 
opportunities as men to go to school and reach their full 
potential around the world.
    Finally, H. Res. 752, introduced by my esteemed colleague 
and friend, Ted Deutch, supports the rights of the Iranian 
people to free expression and condemns the violent crackdown by 
the Iranian regime. We in Congress support the rights of the 
Iranian people to freely assemble without fear of violence from 
their government. This resolution makes it clear that Congress 
is watching the events closely and will continue to speak out 
against violence against peaceful protestors.
    I yield back.
    Chairman Engel. Thank you.
    Are there any other members seeking recognition? Mr. 
Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    I appreciate the committee's consideration of these 
measures in the en bloc package today.
    First, I would like to express my support for H.R. 630, the 
Counterterrorism Screening and Assistance Act. This legislation 
is very similar to legislation that passed twice through this 
committee in the 114th and 115th Congress with bipartisan 
support.
    Since 2011, the situation in Iraq and Syria has presented 
extra-significant challenges for the global community's ability 
to track and combat foreign terrorist actors. In Europe, 
roughly 5,000 EU citizens have traveled to Syria or Iraq to 
become foreign fighters for the Islamic State or other foreign 
terrorist groups. Our foreign partners have employed various 
measures to combat foreign fighters, to include increasing 
surveillance and prohibiting travel, that have successfully 
thwarted a number of plots. But we need to do more.
    There is a very serious and well-recognized need for 
improved international border security and information-sharing 
between governments. This bipartisan legislation would ensure 
U.S. resources are utilized in the most efficient way possible 
to help international partners close loopholes in international 
airport security, better track these terrorists, and prevent 
them from traveling internationally, with a special focus on 
high-risk and medium-risk countries.
    H.R. 630 would do this by requiring the Department of State 
and Department of Homeland Security to accelerate the delivery 
of certain surplus border security systems to countries of 
greatest concern and risk for a foreign fighter or terrorist to 
travel. The U.S. will attempt to collect reimbursement for 
transferred equipment, and all equipment transfers will comply 
with existing regulations related to the export of sensitive 
technologies.
    This legislation would also recognize a reporting system to 
hold our partners accountable by monitoring efforts of foreign 
governments to combat terrorism and foreign fighter travel. It 
is essential that the United States work with the global 
community to monitor and stop the movement of terrorists 
abroad.
    I look forward to working with my colleagues in the House 
and our friends in the Senate to pass and send this bill to the 
President.
    In addition to other great bills in this en bloc, I would 
also like to express my support for H.R. 2343, the Peace and 
Tolerance in Palestinian Education Act. This was a bipartisan 
effort, working with Mr. Sherman, to maintain oversight over 
UNRWA's educational activities in the West Bank and Gaza. Last 
year, Congressman Perry and I secured declassification of a 
shocking GAO UNRWA textbook report revealing what we had 
suspected all along. The UNRWA textbook initiative was a sham. 
Textbook content in UNRWA schools did not mention Israel or 
Judaism and included regional maps that excluded Israel, and 
content was included that incited hate and violence.
    The GAO report found that supplementary material, purchased 
using U.S. tax dollars, to counter the anti-Semitic and anti-
Israel bias injected by the PA was being rejected and not 
utilized on the ground. What is worse, the GAO report concluded 
that Congress has been unable to fully assess the nature and 
extent of the material in PA textbooks because of the State 
Department's misleading reports to Congress. It is unacceptable 
that textbooks that are used de-legitimize Israel and demonize 
Jewish people.
    We must demand transparency over the anti-Israel textbooks 
in this program that are fueling another generation of hate. 
Our bill requires the Secretary of State to submit annual 
reports to Congress to determine whether schools operated by 
UNRWA and the Palestinian Authority have removed this offensive 
textbook content and determine whether any U.S. foreign 
assistance is being used to support this hateful curriculum. 
The United States cannot support a program that goes against 
the best interest of our greatest ally.
    I would like to thank Chairman Engel and Lead Republican 
McCaul for their leadership and assistance on these important 
issues.
    I yield back.
    Chairman Engel. Thank you, Mr. Zeldin.
    Are there any other members seeking recognition?
    Hearing no further requests, then, without objection, the 
committee will proceed to consider the noticed items en bloc.
    Without objection, each measure is considered as read and 
the amendments to each are considered as read and are agreed 
to.
    [The bills and amendments en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. The question is on the measures en bloc, as 
amended, if amended.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc are agreed to.
    And without objection, each measure is ordered favorably 
reported, as amended, if amended, and each amendment to each 
bill shall be reported as a single Amendment in the Nature of a 
Substitute.
    Without objection, staff is authorized to make any 
technical and conforming changes.
    The committee is now adjourned. Thank you very much for 
your hard work.
    [Whereupon, at 11:24 a.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                       STATEMENTS FOR THE RECORD
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                             MARKUP SUMMARY
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
